HHS/OIG-Audit--"Review of Florida Adult Enterprise Partial Hospitalization Program A Florida Community Mental Health Center, (A-04-97-02130)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Florida Adult Care Enterprise Partial Hospitalization Program A Florida Community Mental Health Center," (A-04-97-02130)
April 28, 1998
Complete
Text of Report is available in PDF format (614 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Florida Adult Care Enterprises, a Community Mental Health Center located in Hollywood, Florida, received reimbursement
for partial hospitalization program services provided to Medicare beneficiaries. Our audit showed that none of the services
provided to a sample of 40 beneficiaries were medically necessary and therefore allowable for reimbursement under Medicare
coverage and reimbursement criteria. The services provided were not ordered by a physician, were not provided to eligible
beneficiaries and were not properly documented.
Based on the audit, we recommended that the Health Care Financing Administration (HCFA) instruct the fiscal intermediary
to recover the $1,709,245 paid to the center for unallowable services to the sample beneficiaries. In addition, HCFA also
terminated the center's provider agreement under the Medicare program.